         U.S. Department of Energy
         Office of Inspector General
         Office of Audits & Inspections




Audit Report

Management of Western Area Power
Administration's Cyber Security
Program




DOE/IG-0873                           October 2012
                                 Department of Energy
                                    Washington, DC 20585
                                        October 22, 2012

MEMORANDUM FOR THE UNDER SECRETARY OF ENERGY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Management of Western Area
                         Power Administration's Cyber Security Program"


INTRODUCTION AND OBJECTIVE

The Department of Energy's Western Area Power Administration (Western) markets and delivers
hydroelectric power and related services to 15 states within the central and western United
States. As the largest U.S. Power Marketing Administration, millions of households and
businesses count on Western for low cost, reliable electric prower. To successfully transmit
hydroelectric power to customers and local utilities within its territory, Western relies on a
number of information systems that support the operation, maintenance and management of a
massive electrical power complex, as well as financial and administrative activities.

Prior Office of Inspector General (OIG) reports identified weaknesses related to the management
of information technology programs and infrastructure at Western and other Federal Power
Marketing Administrations. For example, our review of Cyber Security Risk Management
Practices at the Southeastern, Southwestern and Western Area Power Administrations (DOE/IG-
0805, November 2008) revealed that the Administrations did not always develop adequate
security plans, test physical and cyber security controls, resolve identified cyber security
weaknesses or ensure that systems could be recovered in the event of a significant outage. Cyber
security and the protection of the U.S. vital infrastructure are current topics of prime interest.
Consequently, we initiated this follow-up audit to determine whether Western effectively and
efficiently implemented its cyber security program.

RESULTS OF AUDIT

Western had made a number of enhancements to its cyber security program since our prior
review. However, we identified several weaknesses related to vulnerability management and
security controls that could negatively impact its cyber security posture. Specifically, Western
had not always implemented cyber security controls designed to address known system
vulnerabilities and ensured that access controls designed to protect its information systems and
data were in place. In particular:

   •   We found that nearly all of the workstations we tested contained at least one high-risk
       vulnerability related to software updates or patches. Specifically, we identified 19
       software applications installed on workstations that were not configured with the latest
                                                 2


       version or were missing security updates, including applications supporting office
       automation, project management and multimedia functions;

   •   During internal vulnerability scanning, we found that a network server was running an
       unsupported version of a software application. While the application had been removed
       by Western as a result of our testwork, a successful attack on this type of known high-risk
       vulnerability could have put the affected server at risk, potentially causing a disruption to
       normal business operations. We also identified 30 network servers that contained
       vulnerabilities that could have been made more secure by applying publicly available
       security patches and updates;

   •   External vulnerability testing revealed a public-facing application server that was
       configured with a default username and password. This high-risk weakness could have
       allowed an attacker with an Internet connection to obtain unauthorized access to an
       internal database supporting the electricity scheduling system; and,

   •   Our testing of cyber security controls identified weaknesses related to access security
       controls. In particular, we noted a deficiency related to account management for two of
       the four systems reviewed.

The weaknesses identified occurred, in part, because Western had not always implemented
policies and procedures related to vulnerability and patch management. Specifically, while cyber
security officials conducted regular scans on two of the systems reviewed, they did not always
identify and correct known vulnerabilities. For instance, the external vulnerability we discovered
during testing was likely not identified because Western's scan profiles were configured to run a
less intrusive scan than typical to avoid negatively impacting system performance. In addition,
officials had not fully implemented policies and procedures related to managing access to
systems and information, including deactivating and/or disabling unneeded user accounts in a
timely manner. Implementation of controls such as those included in our testwork is an
important element of an effective risk management and continuous monitoring process.

Western had taken action to address many of the vulnerabilities identified during our testing. In
some instances, management was aware of the identified vulnerabilities and was in the process
of upgrading systems, procuring new devices or virtualizing servers to correct the issues.
However, in our view, Western's systems remain at a higher than necessary level of risk of attack
until these vulnerabilities are fully remediated and control procedures are in place to ensure that
applications and programs are updated in a timely manner. As such, we have made
recommendations that should assist in strengthening Western's cyber security posture.

MANAGEMENT REACTION

Management concurred with the report's recommendations and indicated that it had, in some
cases, already completed actions to address specific weaknesses identified in our report. In other
instances, management commented that it was in the process of implementing program
improvements to address our recommendations. Management's formal comments are included in
Appendix 3.
                                             3


Attachment

cc:   Deputy Secretary
      Associate Deputy Secretary
      Administrator, Western Area Power Administration
      Chief of Staff
      Chief Health, Safety and Security Officer
      Chief Information Officer
REPORT ON MANAGEMENT OF WESTERN AREA POWER
ADMINISTRATION'S CYBER SECURITY PROGRAM


TABLE OF
CONTENTS


Cyber Security

Details of Finding ............................................................................................................................1

Recommendations ............................................................................................................................4

Comments ........................................................................................................................................5


Appendices

1.     Objective, Scope and Methodology .........................................................................................6

2.     Prior Reports.............................................................................................................................8

3.     Management Comments ...........................................................................................................9
MANAGEMENT OF WESTERN AREA POWER ADMINISTRATION'S
CYBER SECURITY PROGRAM

CYBER SECURITY   The Western Area Power Administration (Western) had made a
                 number of enhancements to its cyber security program since our
                 review of Cyber Security Risk Management Practices at the
                 Southeastern, Southwestern and Western Area Power
                 Administrations (DOE/IG-0805, November 2008). For instance,
                 Western officials commented that they enhanced control testing
                 through regular Security Test and Evaluation reviews and
                 automated security scanning. Our current review, however,
                 identified several cyber security related weaknesses that could
                 negatively impact Western's information security posture.
                 Specifically, we found that Western had not always implemented
                 cyber security controls designed to address known system
                 vulnerabilities and deployed access controls designed to protect its
                 information systems and data. We also identified weaknesses
                 related to controlling user access to two of the four systems
                 reviewed.

                                      Vulnerability Management

                 Our vulnerability testing of select Western information systems
                 identified internal and external vulnerabilities related to server and
                 workstation configuration management, software management and
                 access controls that could be exploited by an attacker to
                 compromise systems and data. Internal vulnerability scanning was
                 performed on three information systems supporting Western's
                 business functions related to financial management, power
                 management and general support. During our internal
                 vulnerability scanning, significant high-risk weaknesses were
                 identified using authenticated and unauthenticated scanning
                 techniques. Authenticated scanning utilizes login names and
                 passwords to simulate a user being on the system. In contrast,
                 unauthenticated scanning does not make use of login credentials
                 and is used to identify basic network setting vulnerabilities. In
                 particular:

                    •   We found that nearly all of the 105 workstations tested
                        contained at least 1 high-risk vulnerability related to
                        software updates or patches. In particular, we identified 19
                        software applications, supporting functions such as office
                        automation, multimedia and project management that were
                        not configured with the latest version of the application or
                        were missing security updates that were older than 3
                        months. While management agreed with our findings, it
                        commented that certain vendors issue large numbers of
                        security patches at irregular intervals, making them difficult
                        to manage. By exploiting several vulnerable desktop


Page 1                                                             Details of Finding
                applications, a knowledgeable individual could obtain
                unauthorized access to Western workstations from the
                internal network or any external Internet connection;

            •   During authenticated scanning, we found that a network
                server was running an unsupported version of a software
                application. The application was removed by Western
                personnel as a result of our testing. However, a successful
                attack on this type of known high-risk vulnerability could
                have put the affected server at risk for remote code
                execution and other vulnerabilities that could disrupt
                normal business operations; and,

            •   Our unauthenticated scanning identified 30 network servers
                that contained vulnerabilities that could have been
                remediated by installing readily available security patches
                and updates. At the time of our testing, a program installed
                on 29 devices was affected by multiple high-risk
                vulnerabilities. Western personnel had taken action to
                address this weakness and provided evidence that the latest
                version of the program offered by the vendor had been
                installed on each of the identified devices. Exploitation of
                this type of vulnerability, however, could have allowed an
                attacker to gain unauthorized access to internal devices and
                sensitive data.

         We also conducted external vulnerability testing that revealed a
         high-risk weakness relating to ineffective access controls.
         Specifically, we identified an externally facing application server
         that was configured with a default username and password. This
         high-risk vulnerability could have been exploited by an attacker
         from any Internet connection to obtain unauthorized access to the
         internal database supporting the electricity scheduling system. In
         addition, Western's workstations and those of its customers could
         also have been compromised by this vulnerability. To its credit,
         Western personnel took immediate action to correct this weakness
         during our testing.

                                  System Access Controls

         Our testing of cyber security controls also identified weaknesses
         related to access controls over various information systems. In
         particular, we identified weaknesses related to account
         management for two of the four systems we reviewed, including
         those supporting power maintenance and scheduling. Specifically,
         we found that system access was not always revoked for


Page 2                                                   Details of Finding
                           terminated or separated users, including a total of five separated
                           users that remained on active user lists subsequent to departure,
                           even though Western had a requirement that user accounts be
                           blocked according to an employee's departure date. Four of the
                           five users had access to Western's power maintenance system. In
                           another instance, a former employee had been retired for more than
                           a year and yet still had access to the scheduling system. Federal
                           guidance suggests that accounts for separated and terminated users
                           be disabled or removed in a timely manner to prevent unauthorized
                           access to critical or sensitive resources and information. Absent
                           effective implementation of access controls, Western's systems and
                           information could be susceptible to unauthorized use or alteration.

Patching                The weaknesses identified were due, in part, to ineffective
Implementation and      implementation of policies and procedures related to vulnerability
Policies and Procedures and patch management. Even when certain practices were
                        implemented, the practices were not always documented. In
                        addition, officials had not fully implemented policies and
                        procedures related to managing access to systems and information.
                        Effective implementation of procedures and the ability to
                        document processes and risk-based decisions are important
                        elements to help ensure that risk management and continuous
                        monitoring processes are effective.

                                          Vulnerability and Patch Management

                           While cyber security officials conducted monthly authenticated
                           and quarterly unauthenticated scans on two of the systems
                           reviewed, they did not always identify and correct known
                           vulnerabilities. For instance, the external vulnerability found
                           during testing was likely not identified because Western's scan
                           profiles were configured to run a less intrusive scan than typical to
                           avoid bringing down the system. Western officials stated that they
                           have since edited their methodology and reconfigured profiles to
                           help discover the type of weaknesses identified during our testing.

                           Although Western had processes in place for identifying and
                           remediating vulnerabilities, officials had not formally documented
                           the practices associated with the vulnerability and patch
                           management program at the time of our review. Notably, new
                           scanning procedures for Western and its regional offices were
                           being developed. Officials stated that the procedures will include
                           requirements for the frequency of scanning, a timeline for
                           remediation of identified vulnerabilities and risk acceptance
                           procedures. In addition, Western officials stated that they were
                           previously aware of many of the vulnerabilities that were identified
                           and had accepted the risk of the weaknesses. While management

Page 3                                                                      Details of Finding
                  provided sufficient documentation to support its assertion in some
                  cases, in other instances supporting documentation for a risk
                  analysis was either not provided or was inadequate. Without an
                  adequate and supportable assessment of risk, senior managers and
                  other officials may lack the necessary information to make
                  decisions essential to determining whether not remediating known
                  vulnerabilities is appropriate and yields benefits greater than the
                  risk of compromise.

                                  Implementation of Access Controls

                  Western officials had not fully implemented policies and
                  procedures related to controlling user access to systems and data.
                  For instance, system administrators did not always follow
                  organization policy for deactivating or disabling accounts
                  according to the employee's departure date. Furthermore, contrary
                  to recommendations from the National Institute of Standards and
                  Technology (NIST), Western relied on manual rather than
                  automated processes to support account management activities.
                  Specifically, for information systems with high and moderate
                  security categorizations such as those reviewed at Western, NIST
                  suggests employing automated mechanisms for the deactivation of
                  accounts that have been inactive for an established period of time.
                  Failure to implement these access security controls could result in
                  a knowledgeable individual using information technology
                  resources for unauthorized and sometimes malicious purposes that
                  may be detrimental to Western's operations.

Information       Without improvements to its cyber security program, Western's
Systems at Risk   systems and information continue to be at a higher than necessary
                  risk from internal and external threats. As noted, many of the
                  vulnerabilities we identified created the potential for an attacker to
                  gain unauthorized access to networks, workstations and devices,
                  increasing the risk of compromise, loss, modification and non-
                  availability. Any disruption of service resulting from
                  compromised or affected systems could significantly impact
                  critical business functions and Western's mission of delivering
                  reliable, cost-based hydroelectric power to its customers.

RECOMMENDATIONS   To improve the effectiveness of Western's cyber security program,
                  we recommend that the Administrator, Western Area Power
                  Administration:

                     1. Implement appropriate controls to correct the specific cyber
                        security weaknesses identified in this report;




Page 4                                                             Recommendations
                      2. Ensure that policies and procedures are developed, as
                         needed, and are effectively implemented to enhance
                         vulnerability and patch management practices; and,

                      3. Effectively implement policies related to access controls,
                         including deactivating and/or disabling user accounts in a
                         timely manner.

MANAGEMENT         Management concurred with the report's findings and
REACTION           recommendations and commented that corrective actions had been
                   taken or were planned to address the issues identified.
                   Management stated that the majority of desktop vulnerabilities
                   identified were a result of outdated patches relating to a specific
                   application. Management commented that the patches for this
                   application were released at irregular intervals, making it difficult
                   to immediately apply all newly released patches. Management
                   stated that it had accepted and documented this weakness as a
                   business risk at Western. In addition, management commented
                   that the majority of the vulnerable servers identified in our report
                   were a result of vendors not supplying security patches and
                   believed that certain server vulnerabilities identified in our report
                   were false positives.

AUDITOR COMMENTS   Management's comments and planned corrective actions are
                   responsive to our recommendations. During our review, we
                   evaluated potential compensating controls related to identified
                   vulnerabilities and only reported on vulnerabilities for which
                   mitigating controls were not in place or were not fully effective. In
                   addition, we excluded vulnerabilities that were considered "false
                   positives" and only included those for which security patches had
                   been released by vendors at least 90 days prior to our testing.
                   Although management stated that it had accepted and documented
                   the risk of unpatched desktop systems, we were not provided with
                   adequate documentation to support this assertion. Management's
                   comments are included in their entirety in Appendix 3.




Page 5                                           Recommendations and Comments
Appendix 1

OBJECTIVE     To determine whether the Western Area Power Administration
              (Western) effectively and efficiently implemented its cyber
              security program.

SCOPE         The audit was performed between January 2012 and October 2012,
              at Western's Corporate Services Office in Lakewood, Colorado and
              Watertown Operations Office in Watertown, South Dakota. The
              audit included internal and external vulnerability scanning
              conducted by KPMG, LLP on behalf of the Office of Inspector
              General. We conducted external testing of networks and systems
              as an outsider without any elevated privileges. We conducted
              internal scanning as an authenticated user (a user with a valid
              username and password) and reported on vulnerabilities that could
              be exploited by both an insider and a remote attacker. Our work
              did not include a determination of whether vulnerabilities found
              were actually exploited and used to circumvent existing controls.
              At the request of Western, we did not conduct vulnerability
              scanning on the Supervisory Control and Data Acquisition Systems
              because of concerns over the potential impact to operations.

METHODOLOGY   To accomplish our objective, we:

                 •   Reviewed Federal laws and regulations pertaining to
                     information and cyber security such as the Federal
                     Information Security Management Act of 2002;

                 •   Reviewed applicable standards and guidance issued by the
                     Office of Management and Budget and the National
                     Institute of Standards and Technology, such as NIST
                     Special Publication 800-53, Recommended Security
                     Controls for Federal Information Systems and
                     Organizations;

                 •   Obtained and analyzed documentation from Western
                     pertaining to its cyber security program; and,

                 •   Held discussions with officials from Western's Corporate
                     Services Office and the Watertown Operations Office.

              We conducted this audit in accordance with generally accepted
              Government auditing standards. Those standards require that we
              plan and perform the audit to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our findings and
              conclusions based on our audit objectives. We believe that the
              evidence obtained provides a reasonable basis for our findings and
              conclusions based on our audit objective. Accordingly, we



Page 6                                    Objective, Scope and Methodology
Appendix 1 (continued)

                    assessed significant internal controls and compliance with laws and
                    regulations to the extent necessary to satisfy the audit objective. In
                    particular, we assessed Western's implementation of the GPRA
                    Modernization Act of 2010 and determined that while it did not
                    have specific performance measures for cyber security, it had
                    established performance measures to improve information
                    technology policy and oversight. Because our review was limited,
                    it would not have necessarily disclosed all internal control
                    deficiencies that may have existed at the time of our audit. We did
                    not solely rely on computer-processed data to satisfy our objective.
                    Computer-assisted audit tools were used to perform probes and
                    scans of various networks and drives. We validated the results of
                    the scans by confirming the weaknesses disclosed with responsible
                    on-site personnel and performed other procedures to satisfy
                    ourselves as to the reliability and competence of the data produced
                    by the tests. In addition, we confirmed the validity of other data,
                    when appropriate, by reviewing supporting source documents.

                    Management waived the exit conference.




Page 7                                           Objective, Scope and Methodology
Appendix 2

                                     PRIOR REPORTS


  •   Audit Report on Management of Bonneville Power Administration's Information
      Technology Program (DOE/IG-0861, March 2012). The review identified areas of
      concern at the Bonneville Power Administration (Bonneville) related to cyber security,
      project management and procurement of information technology (IT) resources. In
      particular, Bonneville had not implemented controls designed to address known system
      vulnerabilities. Operational security controls designed to protect Bonneville's systems
      also had not been fully implemented. It was also determined that several system
      development efforts suffered from cost, scope and schedule issues, and Bonneville's IT
      software was not always procured in a coordinated manner, resulting in increased
      security risks.

  •   Special Report on Management Challenges at the Department of Energy – Fiscal Year
      2012 (DOE/IG-0858, November 2011). On an annual basis, the Office of Inspector
      General (OIG) identifies what it considers to be the most significant management
      challenges facing the Department of Energy (Department). The identified challenges
      represent risks inherent in the Department's wide ranging and complex operations as well
      as those related to specific management processes. The OIG's management challenge list
      for Fiscal Year 2012 included cyber security.

  •   Audit Report on The Department's Unclassified Cyber Security Program – 2011
      (DOE/IG-0856, October 2011). The review identified various control weaknesses related
      to access controls, vulnerability management, integrity of web applications, contingency
      planning, change control management and cyber security training. In specific regards to
      access control, weaknesses included issues such as failure to perform management
      reviews of user accounts and user access privileges, default or weak usernames and
      passwords, segregation of duties, and a lack of logging/monitoring information system
      activities. Vulnerability management weaknesses consisted of varying degrees of
      vulnerable applications, desktops, and network systems missing security updates and/or
      patches for known vulnerabilities.

  •   Audit Report on Cyber Security Risk Management Practices at the Southeastern,
      Southwestern, and Western Area Power Administrations (DOE/IG-0805, November
      2008). The audit identified several critical certification and accreditation weaknesses at
      Southeastern, Southwestern and Western Area Power Administrations. Specifically, it
      was determined that the Power Marketing Administrations (PMAs) had not always
      developed adequate security plans nor tested physical and cyber security controls. In
      addition, it was noted that the PMAs had not always developed corrective action plans
      necessary to resolve weaknesses. Similarly, contingency plans were not always
      developed to ensure that systems could be recovered in the event of a significant outage.




Page 8                                                                            Prior Reports
Appendix 3

             MANAGEMENT COMMENTS




Page 9                             Management Comments
Appendix 3




Page 10      Management Comments
                                                                    IG Report No. DOE/IG-0873


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1.   What additional background information about the selection, scheduling, scope, or
          procedures of the audit or inspection would have been helpful to the reader in
          understanding this report?

     2.   What additional information related to findings and recommendations could have been
          included in the report to assist management in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of Inspector General have taken on the issues
          discussed in this report that would have been helpful?

     5.   Please include your name and telephone number so that we may contact you should
          we have any questions about your comments.

Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
